No. 20-1151

IN THE

'upreme Court of the Enact( ii§tate0
LIBERTARIAN PARTY OF ERIE COUNTY, et al.,
Petitioners,
v.
ANDREW M. CUOMO, Individually and as Governor
of the State of New York, et al.,
Respondents.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SECOND CIRCUIT

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,916 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 25, 2021.

Colin Casey Plogan
Wilson-Epes Printing Co., Inc.

R ECEIVED
MAY n
sOuFFplEFcT0H
THE CLERK
UR T U.S.

